Before the Committee on Appropriations
Subcommittee on Transportation, Treasury and
 General Government
United States Senate

For Release on Delivery
Expected at
10:30 a.m. EST
                          The State of the
                          Aviation Industry and
Wednesday
April 2, 2003
CC-2003-095

                          the Federal Aviation
                          Administration


                          Statement of
                          The Honorable Kenneth M. Mead
                          Inspector General
                          U.S. Department of Transportation
Mr. Chairman and Members of the Subcommittee,


We appreciate the opportunity to testify today as the Subcommittee begins
deliberations on the fiscal year (FY) 2004 appropriation for the Federal Aviation
Administration (FAA).


This hearing is occurring against the backdrop of an industry in financial
distress−two airlines representing more than 20 percent of the industry are in
bankruptcy, and several others are teetering on the brink.          This is due to a
confluence of factors that include unsustainable cost and fare structures that
clearly predate 9/11 and, with the advent of the war in Iraq, precipitous declines in
travel bookings. The airlines also point to increased security-related expenditures
for passenger screening, insurance, and Federal security taxes as contributing
factors to their financial condition.


Great care must be taken to ensure that any relief package provided by Congress
(1) does not provide a cash subsidy that allows a way for airlines to avoid making
the hard calls necessary to become sustainable, including lowering labor costs
(including management salaries and bonuses) and increasing productivity of
capital; (2) require that any airline security-related costs that Congress judges are
eligible for reimbursement be supported by documentary evidence that clearly
demonstrates that claimed costs were actually incurred; and (3) be of limited
duration.


The issue of service to small- and medium-sized communities is related to the
financial condition of the airline industry. In an effort to stem losses, airlines have
reduced service in the smallest communities by 19 percent in the past 5 years.
Funding levels for the Essential Air Service Program (EAS), which is one vehicle
for restoring access to air service in small communities, will be an important issue


                                          1
for the Committee’s consideration this year. It should be noted, however, that
maintenance of service in small communities will be most successful where
restructuring of the cost structures of the network carriers is most successful.


As for FAA, it is important to recognize that the agency oversees the largest and
safest air transport system in the world, but FAA urgently needs to do
considerably more to bring its costs under control. FAA’s budget has increased
from $8.2 billion in 1996 to $14 billion in FY 2004−an increase of $5.8 billion, or
over 70 percent. Over half of this increase is attributable to sharply rising costs in
FAA’s operations, which are made up primarily of salaries (about 74 percent of
FAA’s FY 2004 Operations budget). From 1998 (when FAA began implementing
new pay systems), salaries within the agency have increased 41 percent whereas
the overall increase for the Federal workforce in Washington, DC, for example,
was about 30 percent.


In terms of acquisitions, 5 major acquisitions out of 20 that we track have
experienced substantial cost growth totaling more than $3 billion, which is
equivalent to an entire year’s budget for FAA’s modernization account. These
same 5 acquisitions have also experienced schedule slips of 3 to 5 years.


Continued cost growth of this magnitude is unsustainable given the financial state
of the airline industry, multibillion-dollar declines in projected Aviation Trust
Fund receipts, and greater dependence on the General Fund to pay for FAA’s
operations. We do not believe the answer to cost growth at FAA lies in an
increase in taxes, fees, or other charges, which are already significant. Given the
weak demand environment, any further increases are likely to reduce airline
revenues and further threaten the financial health of the industry. Just as the
airlines have had to rethink the basics of their business, FAA also must re-examine
how it does business and redouble its efforts to become performance based in deed


                                          2
as well as in word. Administrator Blakey is taking steps to move the agency in
that direction.


In terms of safety, we feel the imperatives for FAA are: (1) further reducing
operational errors (when planes come too close together in the air) and runway
incursions (potential collisions on the ground)−in 2002, a commercial aircraft was
involved in at least one serious runway incursion or operational error every
10 days; (2) providing adequate oversight of air carrier maintenance in view of
shifts in carrier practices from in-house to outsourced (from 1996 to 2001,
outsourcing maintenance by major air carriers increased from 37 percent of total
maintenance costs to 47 percent); and (3) addressing pending controller
retirements.


On the security front, an important issue will be resolving who will pay for the
next phase of explosives detection systems integration into airport baggage
systems. This is a multi-billion dollar item.


State of the Airline Industry
Most of the major domestic airlines are in a precarious financial condition.
Several airlines are in bankruptcy and others are teetering on the brink.1 As a
group, the major carriers reported net losses totaling over $11 billion in 2002,
which followed a year where their combined losses totaled $7.5 billion. For 2003,
even before the United States went to war with Iraq, major carriers were projecting
losses of between $6 billion and $7 billion. Now that the United States is at war,
the airlines have increased their estimated losses to between $10 billion and
$11 billion, based on a 90-day war. And the end is not yet in sight, as current
forecasts now extend the timeframe for recovery from 2004 to 2005 or 2006.

1
    As of April 1, 2003, the two carriers in bankruptcy were United Airlines and Hawaiian Airlines. US Airways
     emerged from bankruptcy protection on March 31, 2003.


                                                           3
In February 2003, actual flight operations were down 10 percent compared to
February 2000. Overall, domestic enplanements were down nearly 8 percent in
January 2003 compared to January 2000. Much of the reduced demand represents
what had once been the higher fare business travelers.                                          By some estimates,
business travelers account for 50 percent of airline revenues although they
typically represent only 20 percent of airline travel.                                As the following figure
illustrates, business travel in November 2002 was nearly one-third less than it was
in November 2000.



                 Percent Change in Business and Leisure Travel Since 2000
                                                   Business         Leisure
       10%

                                                                                                 Nov '02
         0%
                                                                                                 Leisure
                                                                                                  -19%
       -10%


       -20%


       -30%

                                                                                            Nov '02
       -40%                                                                                Business
                  ATA Data Analyzed by Deutsche                                              - 32%
                       B ank Securities Inc.
       -50%




In the third quarter 2002, breakeven load factors2 for the industry as a whole were
87 percent, while actual load factors averaged only 74 percent. One airline in that
period experienced breakeven load factors of over 100 percent. How can an
airline fill more than 100 percent of its seats? The answer is it cannot, which is
why that carrier is on the brink of bankruptcy.


2
    The average percentage of paying passengers on all flights needed to cover airline costs.


                                                              4
In response to the economic downturn and increased costs following 9/11, airlines
have reduced their workforces, modified schedules, eliminated flights, closed
offices and facilities, and retired aircraft. Negotiations are underway to reduce
employment expenses throughout the industry by an additional $10 billion.
Several airlines have used the bankruptcy process to restructure their costs,
including renegotiating their labor contracts and their debt instruments. Still,
financial conditions continue to be weak, exacerbated now by the ongoing war in
Iraq.


Based on a scenario of a 90-day war, the airlines project that their losses will be
$4 billion higher in 2003 than the $6.7 billion they had originally projected. The
losses would be driven by decreased passenger demand, higher fuel prices, and
lower airfares. The airlines attest that they have already incurred over $4 billion in
additional security costs since 9/11, including passenger screening fees, new
security taxes, increased insurance costs, freight restrictions, cockpit door
fortification, and the Federal Air Marshall program.


A case could be made for providing some form of financial relief to assist airlines
in the short term; such as extending the Federal war risk insurance program and
extending the Air Transportation Stabilization Board loan guarantee program.
Loan guarantees, if prudently incurred, can help to stabilize the financial condition
of the industry. They may also prove a prudent, short-term market intervention if
used to finance a realistically restructured airline’s exit from bankruptcy.


Other forms of potential relief, including reimbursing the airlines for security
improvements, eliminating or reducing the Passenger Security Tax and Air Carrier
Security Fee, and drawing down the Strategic Petroleum Reserve, should be
considered in the following context.


                                          5
The airlines are requesting a very large sum of money from the American
taxpayers. In that regard, we are concerned, as are American taxpayers, about the
appearance of large executive pay packages that are still in place for top
executives at some of the airlines with large operating losses. Financial aid is not
a substitute for self-help. This must come in the form of restructuring labor costs
and management salaries, as well as increasing productivity of capital.


Policy decisions are being made that could affect the competitive balance of the
airline industry, and the implications of providing financial assistance for any
reason need to be carefully considered. The airline industry is important to the
economy of the United States and certainly financial assistance at this juncture
would help preserve the industry in the short term. But it should be noted that
while all airlines have had to incur the increased financial burden of operating in a
post 9/11 environment, not all airlines are suffering equally. In fact, two airlines.
Southwest and JetBlue, earned profits last year. These airlines were successful
because their cost structures represent a more realistic picture of a post-
deregulation competitive airline industry.     Care should be taken not to penalize
carriers who have adapted or revised their cost structures to forms that are
sustainable, even during an economic crisis.


Consideration should also be given to how financial assistance to the airline
industry will be viewed by our international counterparts. To the extent possible,
any relief package should be structured to limit the possibility of being criticized
as an unfair airline subsidy.


The airlines are especially vulnerable to the effects of this war and the terrorist
attacks that may accompany it. But it should not be forgotten that during wartime,
many industries suffer financial losses–travel agents, retail outlets, cruise lines,


                                         6
and hotels–to name a few.     Therefore, it is essential that a financial aid package
designed to assist just one affected industry−the airlines–include narrowly defined
relief terms and be of limited duration.


If the decision is made to provide some sort of assistance to the airlines, the
following guidelines should apply.


• The effects of 9/11 and the war in Iraq have no doubt affected the airlines’
   costs and revenues, but the fact is that many airlines had unsustainable cost
   structures long before these events took place. Any financial assistance that is
   forthcoming should not result in a bail-out for failures in the competitive
   marketplace that occurred prior to 9/11. Funding that is not tied specifically
   and demonstrably to direct security-related costs simply postpones the
   restructuring that will be necessary in order for the major network carriers to
   remain viable. Most of the current financial woes of the industry should be
   solved by the marketplace.


• Documentation of which costs are being claimed and in what amount must be
   provided by the airlines and verified to ensure that funds provided under a
   security relief package are not subsidizing financial losses unrelated to
   security. Clarity is needed concerning whether financial assistance will be
   restricted to future war-related costs or security-related costs already incurred
   by the industry. Whichever costs are deemed eligible, the airlines must be held
   absolutely accountable for documenting the costs the aid is applied towards.


• Financial assistance aimed at providing short-term war relief should be just
   that: short term. Aid, if provided, should be of limited duration and should not
   come to be expected by the industry on a recurring basis.              Given the
   uncertainty of what could happen over the course of the coming year, an aid

                                           7
   program should terminate at the end of a firmly fixed time period with the
   option to revisit the terms of the program if conditions warrant.


Service to Small and Medium Sized Communities
Financial problems for major airlines may ultimately affect the air service to
small- and medium-sized communities. The major network carriers serve these
communities through their mainline service and regional affiliates by connecting
passengers from these communities to the major airlines’ hubs.         At the current
time, low-cost carriers are not a solution for many small- and medium-sized
communities if their service declines. The low-cost carrier business models focus
on serving dense markets that make it economical to fly multiple frequencies in
large-volume jets.   That model would not be sustainable in these small- or
medium-sized communities. Maintenance of service in these markets will be most
successful where the restructuring of the network carriers is most successful.


In the smallest communities–those served by non-hub airports–service has been
declining for the past 5 years. Between March 1998 and March 2003, non-hub
airports nationwide lost 19 percent of their commercial air service as measured by
available seat miles. Between March 2000 and March 2003, non-hub airports in
the Northeast and Midwest lost approximately one-third of their service.




                                         8
         Capacity Changes By Region at Non-Hub Airports:
           March 2003 vs. March 2000 (Available Seat Miles)

                 West -9%
                                                           Northeast
                                        Midwest              -33%
                                         -31%




                                                       South -18%




   Source: FAA Data         National Average -19%




The Essential Air Service Program is a tool that these small communities rely on
for attracting air service to their communities. The funding levels for this program
will be an important matter for the Committee’s consideration this year.


General State of FAA
As a result of the slow economy and the decline in air travel, there has been a
significant decrease in tax revenues coming into the Aviation Trust Fund.
Projected tax receipts to the Aviation Trust Fund for FY 2004 have dropped from
approximately $12.6 billion estimated in April 2001 to about $10.2 billion
estimated in February 2003. Over the next 4 years, Aviation Trust Fund tax
revenues are expected to be about $10 billion less than projections made in April
2001. Although Trust Fund projections are down for next year, FAA’s spending
request is not; increasing from $13.6 billion this year to $14.0 billion next year. If
this $3.8 billion gap between Trust Fund revenues and FAA’s budget
($10.2 billion to $14.0 billion) is financed by the General Fund, it would represent
a rough doubling of such spending compared to recent years.


                                          9
                           FAA: Decline in Estimated Trust Fund Revenues
                                     Compared to FAA's Budget
                  $15.0                                              $13.8        $13.6         $14.0          $14.2
                                                       $12.6
                                         $10.1
  $ in Billions



                  $10.0     $9.8
                                                   $10.4         $11.2        $11.9          $12.6         $13.3
                        $10.4        $9.7
                        Actual      Actual                             $9.0           $9.4         $10.2           $10.9
                   $5.0                                   $9.1
                                                         Actual
                   $0.0
                          FY 1999     FY 2000       FY 2001       FY 2002       FY 2003       FY 2004       FY 2005

                           April 2001 TF Estimate              February 2003 TF Estimate                  FAA's Budget

                                 (FY 2002 figures include onetime anti-terrorist supplemental funding.)


While there have been suggestions that this gap could be closed by increasing
taxes or fees on airlines and air passengers, we urge extreme caution in this area.
Taxes and fees are already high. For example, a non-stop round-trip ticket costing
$200 may consist of nearly $33 in taxes, fees, and airport passenger facility
charges or 16 percent of the fare.                             On a connecting flight, the taxes on a
$200 ticket could be up to $51, or nearly 26 percent of the fare. Any further
increases are likely to reduce airline revenues, given the weak demand
environment and will further threaten the financial health of the industry.


Over the past 5 years, FAA has had some notable accomplishments−successfully
managing the Y2K computer problem, obtaining a clean opinion on agency-wide
financial statements, bringing new Free Flight controller tools on-line, deploying
the Display System Replacement on time and within budget, and expeditiously
shutting the system down safely on 9/11. However, a key focus for FAA now
must be effective cost control. This, in our opinion, is a primary challenge facing
FAA for the next several years.




                                                               10
Operating as a Performance Based Organization. In 1996, Congress acted to
make FAA a performance-based organization by giving the agency two powerful
tools–personnel reform and acquisition reform. The expectation was that FAA
would operate more like a business−that is, services would be provided to users
cost effectively and major acquisitions would be delivered on time and within
budget. FAA was also directed to establish a cost accounting system so that FAA
and others would know where funds were being spent and on what. It is now over
6 years later and we do not see sufficient progress toward FAA’s becoming
performance-based or toward achieving the outcomes that Congress envisioned.


• Personnel Reform. Personnel reform was a key element of the move to make
   FAA performance-based.         But to date, the reality has been increasing
   workforce costs and significantly higher salaries. From 1998 (when FAA
   began implementing new pay systems), salaries within the agency have
   increased 41 percent whereas the overall increase for the Federal workforce in
   Washington, D.C., for example, was about 30 percent.


   The new pay system for controllers (FAA’s largest workforce) was a
   significant cost driver. The average base salary for fully certified controllers is
   now over $106,000, which is exclusive of premium pay and overtime. That
   figure represents a 47 percent increase over the 1998 average of $72,000, and
   compares to an average salary increase of about 32 percent for all other FAA
   employees during the same period. Although linking pay and performance was
   a key tenet of personnel reform, only about 36 percent of FAA employees
   receive pay increases based on individual performance. The remaining FAA
   employees receive largely automatic pay increases.


   In our work, we also found there are between 1,000 and 1,500 side bar
   agreements or Memorandums of Understanding (MOUs) that are outside the

                                         11
   national collective bargaining agreement with controllers. Many serve very
   legitimate purposes, but some can add millions to personnel costs.            For
   example, one MOU we reviewed allows controllers transferring to larger
   consolidated facilities to begin earning the higher salaries associated with their
   new positions substantially in advance of their transfer or taking on new duties.
   At one location, controllers received their full salary increases 1 year in
   advance of their transfer (in some cases going from an annual salary of around
   $54,000 to over $99,000).      During that time, they remained in their old
   location, controlling the same air space, and performing the same duties.


   We found that controls over MOUs are inadequate. FAA management does
   not know the exact number or nature of these agreements, there are no
   established procedures for approving MOUs, and their cost impact on the
   budget has not been analyzed. It is important for FAA to get a handle on this
   process because many MOUs involve issues pertaining to deploying new
   equipment.      We briefed Administrator Blakey on our concerns regarding
   MOUs; FAA is now in the process of identifying those MOUs that are
   problematic or costly and has begun a dialogue with the controller’s union to
   address them.


• Acquisition Reform. FAA has learned from past mistakes and its “build a little,
   test a little” approach has clearly avoided failures on the scale of the
   multibillion-dollar Advanced Automation System acquisition. But the bottom
   line is that significant schedule slips and substantial cost growth for major air
   traffic control acquisitions are all too common. The following chart provides
   cost and schedule information on 5 of 20 projects we track that were largely
   managed since FAA was granted acquisition reform.




                                        12
                                     Estimated        Percent
                                   Program Costs       Cost                   Implementation
          Program               (Dollars in Millions) Growth                     Schedule
                                Original Current                          Original      Current
 Wide Area                       $892.4    $2,922.4* 227 %               1998-2001     2003-To Be
 Augmentation System                                                                  Determined**

 Standard Terminal               $940.2      $1,690.2**      80 %        1998-2005         2002- To Be
 Automation                                                                                Determined**
 Replacement System

 Airport Surveillance            $752.9        $916.2        22 %        2000-2005         2003-2008
 Radar-11

 Weather and Radar               $126.4        $152.7        21 %        1999-2000         2002-2003
 Processor

 Operational and                 $174.7        $251.0        44 %        1998-2001         2002-2005
 Supportability
 Implementation System
* This includes the cost to acquire geostationary satellites and costs are under review.
**Costs and schedules are under review by FAA.

These five acquisitions have experienced substantial cost growth totaling more
than $3 billion, which is equivalent to an entire year’s budget for FAA’s
modernization account (Facilities and Equipment).                                These same five
acquisitions have also experienced schedule slips of 3 to 5 years. Problems
with cost growth, schedule slips, and performance shortfalls have serious
consequences.         They result in costly interim systems, a reduction in units
procured, postponed benefits (in terms of safety and efficiency), or “crowding
out” other projects. For example, in FY 2002 alone, FAA reprogrammed over
$40 million from other modernization efforts to pay for cost increases in the
Standard Terminal Automation Replacement System (new controller displays
for FAA’s terminal facilities).


FAA needs to set priorities and link the Operational Evolution Plan (OEP)
(FAA’s blue-print for enhancing capacity), with the agency’s budget and
address uncertainties with how quickly airspace users will equip with new



                                                 13
  technologies in the Plan (estimated at $11 billion). FAA is retooling the OEP,
  and both FAA and industry officials told us that considerable benefits may be
  obtained through airspace changes, new procedures, and taking advantage of
  systems currently onboard aircraft—all of which do not require major
  investments by airlines. According to senior FAA officials, hard decisions
  about funding OEP initiatives and related major acquisitions will need to be
  made. In addition, FAA needs to develop metrics to assess progress with
  major acquisitions.


• Cost Accounting System.          To effectively operate as a performance-based
  organization, FAA needs an accurate cost accounting system to track agency
  costs and provide managers with needed cost data by location. Without a
  reliable cost accounting system, FAA cannot credibly claim to be, nor can it
  function as, a performance-based organization.


  At the direction of Congress, FAA began developing its cost accounting
  system in 1996, which was estimated at that time to cost about $12 million and
  be completed in October 1998. Now, after nearly 7 years of development and
  over $38 million, FAA still does not have an adequate cost accounting system,
  and it expects to spend at least another $7 million to deploy the cost accounting
  system throughout FAA.           Although FAA’s cost accounting system is
  producing cost data for two of its lines of business, it still does not report costs
  for each facility location. For example, for the Terminal Service in FY 2001,
  about $1.3 billion of $2.4 billion was reported in lump-sum totals and not by
  individual facility locations.


  FAA also needs an accurate labor distribution system to track the costs and
  productivity of its workforces. Cru-X is the labor distribution system FAA
  chose to track hours worked by air traffic employees. As designed, Cru-X


                                         14
   could have provided credible workforce data for addressing controller concerns
   about staffing shortages, related overtime expenditures, and to help determine
   how many controllers are needed and where. That information in turn is
   especially important given projections of pending controller retirements.
   Unfortunately, Cru-X has not been implemented as designed. We hope it will
   be in the coming year.


Aviation Safety. After several years of continuous increases in operational errors
and runway incursions, FAA has made progress in reducing these incidents. In
FY 2002, operational errors decreased 11 percent to 1,061 and runway incursions
decreased 17 percent to 339 from FY 2001 levels. Despite FAA’s progress, the
number of these incidents is still too high considering the potential catastrophic
results of a midair collision or a runway accident. On average, in FY 2002, at
least one commercial aircraft was involved in a serious runway incursion or
operational error (in which a collision was barely avoided) every 10 days. We will
be issuing our report on operational error and runway incursions shortly.


FAA also needs to pay close attention to the level of oversight it provides for
repair stations. Since 1996, there has been a significant increase in air carriers’
use of these facilities. In 1996, major air carriers spent $1.6 billion for outsourced
maintenance (37 percent of total maintenance costs), whereas in 2001, the major
air carriers outsourced $2.9 billion (47 percent of total maintenance costs). As of
September 2002, four major carriers were outsourcing between 64 and 77 percent
of their maintenance.


In spite of this increase in the use of repair stations, FAA’s surveillance continues
to target more resources on air carriers’ in-house maintenance facilities than repair
stations. In fact, repair stations are required to be inspected by FAA only once
annually. In addition, some FAA-certified foreign repair stations are not inspected


                                         15
by FAA inspectors at all because foreign civil aviation authorities review repair
stations on FAA’s behalf.


This trend in outsourcing maintenance is likely to continue, and FAA needs to
consider the shift in maintenance practices when planning its safety surveillance
work. We will be issuing our report on FAA’s oversight of repair stations shortly.


Another significant issue is the pending wave of controller retirements. In May
2001, FAA estimated almost 7,200 controllers could leave the agency by the end
of FY 2010. In general, the training process to become a certified professional
controller can take up to 5 years. Given that time lag, FAA needs to take actions
now to address when and where new controllers will be needed. The pending
retirements underscore the need for an accurate labor distribution system. We will
be starting an audit of controller training in the next several weeks.


Mr. Chairman, let me conclude by discussing a major issue for airports−funding
the next phase of explosives detection systems (EDS) integration. Thus far, nearly
all EDS equipment has been lobby-installed. The planned next step (integrating
the EDS equipment into airport baggage systems) is by far the most costly aspect
of full implementation. We have seen estimates that put the costs of those efforts
between $3 and $5 billion. A key question is who will pay for those costs as well
as other costs still to be determined, such as improving access controls and
acquiring new screening technologies.




                                          16
Making FAA a Performance-Based Organization Through Controlling
Costs in Operations and Major Acquisitions

Controlling Operating Cost Increases. Although Congress envisioned that
personnel reform would result in more cost-effective operations, this has not
occurred. Since 1996, FAA’s operating costs have increased substantially. As
shown in the following graph, FAA’s operations budget has increased from $4.6
billion in FY 1996 to $7.6 billion in FY 2004. Given the decline in Aviation Trust
Fund revenues and the financial situation of the airlines, a continuation of this
growth can no longer be sustained.


               FAA's Operations Budget - FY 1996 to FY 2004
                               $ in Billions

              $8
              $7
                                                                                                     $7.6
              $6                                                                           $7.1
                                                                      $6.9
              $5                                            $6.0 $6.6
              $4                        $5.3 $5.6
                    $4.6      $5.0
              $3
              $2
              $1
              $0
                    FY 1996

                              FY 1997

                                        FY 1998

                                                  FY 1999

                                                             FY 2000

                                                                       FY 2001

                                                                                 FY 2002

                                                                                           FY 2003

                                                                                                     FY 2004


                   FY 2002 figures exclude onetime anti-terrorist supplemental funding.



Much of the increase in operations costs has been a result of salary increases from
collective bargaining agreements negotiated under FAA’s personnel reform
authority. The 1998 collective bargaining agreement with the National Air Traffic
Controllers Association (NATCA), which created a new pay system for
controllers, was a significant cost driver. Under the agreement, most controllers’
salaries increased substantially. For example,

• The average base salary for fully certified controllers has now risen to over
  $106,000–a 47 percent increase over the 1998 average of about $72,000 (as
  shown in the table below). This compares to an average salary increase for all
  other FAA employees during the same period of about 32 percent, and for all
  Government employees in the Washington, D.C. area of about 30 percent.




                                                            17
                  Average Base Salaries for FAA Employees

               Average Base Salary    Fully Certified Air Non-Controller
               (Including Locality)   Traffic Controllers FAA Employees

               2003                      $106,580*              $78,080

               1998                         $72,580             $59,200

               Percentage Increase             46.8               31.9
               From 1998 to 2003
                                 *After 4.9 percent increase.


Following the NATCA agreement, other FAA workforces began organizing into
collective bargaining units as well. Today, FAA has 48 collective bargaining units
as compared to 19 collective bargaining units in 1996.

The increase in bargaining units has complicated FAA’s plans for fielding its
agency-wide compensation system (created in April 2000), because FAA’s 1996
reauthorization requires that FAA negotiate compensation with each of its unions.
This has also complicated FAA’s plans to create a link between pay and
performance. Although linking pay and performance was a key tenet of personnel
reform, only about 36 percent of FAA employees receive pay increases based on
individual performance. The remaining FAA employees receive largely automatic
pay increases.

We also found, that outside the national collective bargaining agreement with
NATCA, FAA and the union have entered into hundreds of side bar agreements or
MOUs. These agreements can cover a wide range of issues such as implementing
new technology, changes in working conditions and, as a result of personnel
reform bonuses and awards, all of which are in addition to base pay. We found
that FAA’s controls over MOUs are inadequate. For example, there is:
    - no standard guidance for negotiating, implementing, or signing MOUs;
    - broad authority among managers to negotiate MOUs and commit the
       agency;
    - no requirement for including labor relations specialists in negotiations; and
    - no requirement for estimating potential cost impacts prior to signing the
       agreement.

In addition, FAA has no system for tracking MOUs, but estimates there may be
between 1,000 and 1,500 MOUs agency-wide. While most MOUs serve very
legitimate purposes, we reviewed a number of MOUs that had substantial cost
implications. For example,



                                             18
• As part of the controller pay system, FAA and NATCA entered into a national
  MOU providing controllers with an additional cost of living adjustment. As a
  result, at 111 locations, controllers receive between 1 and 10 percent in
  “Controller Incentive Pay,” which is in addition to Government-wide locality
  pay. In FY 2002, the total cost for this additional pay was about $27 million.
• One MOU we reviewed allows controllers transferring to larger consolidated
  facilities to begin earning the higher salaries associated with their new
  positions substantially in advance of their transfer or taking on new duties. At
  one location, controllers received their full salary increases 1 year in advance
  of their transfer (in some cases going from an annual salary of around $54,000
  to over $99,000). During that time, they remained in their old location,
  controlling the same air space, and performing the same duties.

Administrator Blakey is aware of our concerns regarding MOUs and has begun a
dialogue with NATCA to address this issue.

Improving Management of Major Acquisitions. FAA spends almost $3 billion
annually on a wide range of new radars, satellite-based navigation systems, and
communication networks. Historically, FAA’s modernization initiatives have
experienced cost increases, schedule slips, and shortfalls in performance. While
progress has been made with Free Flight Phase 1, problems persist with other
major acquisitions. In 1996, Congress exempted FAA from Federal procurement
rules that the agency said hindered its ability to modernize the air traffic control
system. Now, after nearly 7 years, FAA has made progress in reducing the time it
takes to award contracts, but acquisition reform has had little measurable impact
on bottom line results—bringing large-scale projects in on time and within budget.
The following chart provides cost and schedule information on 5 of 20 projects we
track that have been managed since FAA was granted acquisition reform.

                          Estimated                 Percent
                       Program Costs                 Cost          Implementation Schedule
     Program         (Dollars in Millions)          Growth
                    Original     Current                           Original            Current
   WAAS              $892.4        $2,922.4*        227 % 1998-2001 2003-TBD**

   STARS             $940.2        $1,690.2**          80 % 1998-2005 2002-TBD**

   ASR-11            $752.9           $916.2           22 % 2000-2005 2003-2008

   WARP              $126.4           $152.7           21 % 1999-2000 2002-2003

   OASIS             $174.7           $251.0           44 % 1998-2001 2002-2005
         *This includes the cost to acquire geostationary satellites and costs are under review.
                               **Costs and schedules are under review.


                                                  19
These five acquisitions have experienced cost growth of over $3 billion and
schedule slips of 3 to 5 years. Problems with cost growth, schedule slips, and
performance shortfalls have serious consequences—they result in costly interim
systems, a reduction in units procured, postponed benefits (in terms of safety and
efficiency), or “crowding out” other projects.

For example, STARS, which commenced operations at Philadelphia this past year,
has cost FAA more than $1 billion since 1996. Most of these funds were spent on
developing STARS, not delivering systems. When the STARS development
schedule began slipping, FAA procured an interim system, the Common
Automated Radar Terminal System (Common ARTS) for about $200 million.
FAA is now operating Common ARTS (software and processors) at approximately
140 locations.

Moreover, in FY 2002 alone, FAA reprogrammed over $40 million from other
modernization efforts (data link communications, oceanic modernization, and
instrument landing systems) to pay for cost increases with STARS. As a result of
these cost and schedule problems, in March 2002, FAA officials proposed scaling
back the program from 182 systems for $1.69 billion to a revised estimate of 73
systems for $1.33 billion. No final decision has been made, and FAA is currently
reevaluating how many STARS systems it can afford.

Cost growth of this magnitude must be avoided because only 60 percent of FAA’s
FY 2004 request for Facilities and Equipment is expected to be spent on new air
traffic control systems, whereas the remaining funds are requested for FAA
facilities, mission support (i.e., support contracts), and personnel expenses.


                            FAA's FY 2004 Budget Submission
                               (Facilitie s and Equipme nt)


                       Pers onnel &
                         Related                      ATC Sys tem s
                                                          60%
                        Expens es
                           15%


                 Miss ion
                 Support
                  11%




                  Facilities
                    14%




                                           20
There are large-scale acquisitions−both old and new−whose cost or schedule
baselines need to be revised because the programs have changed considerably or
benefits have shifted. For example, the Integrated Terminal Weather System
(ITWS) provides air traffic managers with enhanced weather information. FAA
planned to complete deployment of the new weather system in 2004 at a cost of
$286 million. However, unit production costs have skyrocketed from $360,000 to
over $1 million; FAA cannot execute the program as scheduled and may extend
the deployment by 4 years.

In addition, FAA intended to have the Local Area Augmentation System
(Category I)—a new precision approach and landing system—in operation in
2004. It is now clear that this milestone cannot be met because of additional
development work, evolving requirements, and unresolved issues regarding how
the system will be certified as safe for pilots to use. Moreover, the more
demanding Category II/III services (planned for 2005) are now a research and
development effort with an uncertain end state. This means that benefits
associated with the new precision approach and landing system will be postponed.

Our work has also found that FAA has not followed sound business practices for
administering contracts. We have consistently found a lack of basic contract
administration at every stage of contract management from contract award to
contract closeout.

For example, we found that Government cost estimates were:
   − prepared by FAA engineers, then ignored;
   − prepared using unreliable resource and cost data;
   − prepared by the contractor (a direct conflict of interest); or
   − not prepared at all.

FAA has stated that it will take actions to address these concerns–the key now is
follow through.

In addition to strengthening contract oversight, FAA needs to develop metrics to
assess progress with major acquisitions, make greater use of Defense Contract
Audit Agency audits, and institute cost control mechanisms for software-intensive
contracts. FAA needs to obtain these audits from the Defense Contract Audit
Agency for contract costs billed by private companies for research and
development, production, and all costs related to system development. FAA
should get these audits to ensure that the amounts billed are reasonable and that
the government’s interest is properly protected. By ensuring that only acceptable
costs are paid to contractors, FAA will be able to stretch its procurement dollars
further.

                                         21
With schedule slips and cost overruns in major acquisitions, it should be noted that
FAA is not getting as much for its $3 billion annual investment as it originally
expected.

Tracking Costs. An effective cost accounting system is fundamental to measuring
the cost of FAA activities and provides the basis for setting benchmarks and
measuring performance. Without a reliable cost accounting system, FAA cannot
credibly claim to be, nor function as, a performance-based organization. It
represents the underpinning for FAA’s operation as a performance-based
organization through the development of good cost information for effective
decision-making. At the direction of Congress, FAA began developing its cost
accounting system in 1996, which was estimated at that time to cost about $12
million and be completed in October 1998. Now, after nearly 7 years of
development and spending over $38 million, FAA still does not have an adequate
cost accounting system, and expects to spend at least another $7 million to deploy
the cost accounting system throughout FAA.

Although FAA’s cost accounting system is producing cost data for two of its lines
of business, it still does not report costs for each facility location. For example,
for the Terminal Service in FY 2001, about $1.3 billion of $2.4 billion was
reported in lump-sum totals and not by individual facility locations.

FAA also needs an accurate labor distribution system to track the costs and
productivity of its workforces. Cru-X is the labor distribution system FAA chose
to track hours worked by air traffic employees. As designed, Cru-X could have
provided credible workforce data for addressing controller concerns about staffing
shortages, related overtime expenditures, and to help determine how many
controllers are needed and where. That information in turn is especially important
given projections of pending controller retirements. Unfortunately, Cru-X as
designed has not been implemented. We hope it will be in the coming year.

Building Aviation System Capacity and More Efficient Use of Airspace
to Prevent a Repeat of the Summer of 2000

FAA needs to be strategically positioned for when demand returns through a
combination of new runways, better air traffic management technology, airspace
redesign, and greater use of non-hub airports. It would be shortsighted to do
otherwise. FAA estimates that domestic passenger numbers are expected to return
to 2000 levels by 2005, although the recovery in passenger traffic will lag by a
year for major carriers. FAA also reports large increases in the use of regional jets
(from 496 in 2000 to over 900 in 2002)—this bears careful watching because of
their impact on FAA operations and modernization efforts.



                                         22
FAA’s OEP is the general blueprint for increasing capacity. As currently
structured, the plan includes over 100 different initiatives (including airspace
redesign initiatives, new procedures, and new technology) and is expected to cost
in the $11.5 to $13 billion range, excluding the costs to build new runways, but the
true cost of implementing the plan is unknown. FAA estimates the plan will
provide a 30 percent increase in capacity over the next 10 years assuming all
systems are delivered on time, planned new runways are completed, and airspace
users equip with a wide range of new technologies.

While airspace changes and new automated controller tools will enhance the flow
of air traffic, it is generally accepted that building new runways provides the
largest increases in capacity. The OEP now tracks 12 runways scheduled for
completion in the next 10 years. Four of the runway projects are expected to be
completed in 2003 at Denver, Houston, Miami, and Orlando airports. However,
construction on several other airports has been delayed from 3 months to 2 years.
There are other new runway projects not in the plan but important for increasing
capacity, such as Chicago O’Hare. These runway projects are not in the plan
because airport sponsors have not finalized plans or developed firm completion
dates. FAA needs to continue to closely monitor all new runway projects.

Progress has been made with OEP initiatives, but much uncertainty exists about
how to move forward with systems that require airlines to make investment in new
technologies. FAA and the Mitre Corporation estimate the OEP would cost
airspace users $11 billion to equip with new technologies. For example, FAA and
Mitre estimate the cost to equip a single aircraft with Automatic Dependent
Surveillance-Broadcast ranges from $165,000 to almost $500,000, and the cost for
Controller-Pilot Data Link Communications ranges from $30,000 to $100,000
excluding the cost to take the aircraft out of revenue service.

FAA is working to retool the OEP. With the slow down in the demand for air
travel, FAA has an opportunity to synchronize the OEP with FAA’s budget and set
priorities, and address uncertainties with respect to how quickly airspace users will
equip with new technologies in the plan. Senior FAA officials noted that hard
decisions will need to be made. Further, some large-scale, billion-dollar
acquisitions are not in the Plan but critical for its success. For example, the
Enroute Automation Replacement Modernization project (new software and
hardware for facilities that manage high altitude traffic with an estimate cost of
$1.9 billion) is not an OEP initiative but needs to be fully integrated with the Plan
and considered when setting priorities.

It is a good time to rethink what reasonably can be accomplished over the next 3 to
5 years, and what will be needed by FAA and industry given the decline in Trust
Fund revenue and the financial condition of the airlines. According to the


                                         23
Associate Administrator for Research and Acquisition, it is likely that the OEP
will shift from a plan that relied heavily on airspace users to equip their aircraft to
one that places greater emphasis on airspace changes and procedural changes that
take advantage of equipment already onboard aircraft.

Striking a Balance Between How Airport Funds Will Pay for Capacity
and Security Initiatives

A major issue for airports is funding the next phase of EDS integration. Thus far,
nearly all EDS equipment has been lobby-installed. TSA’s planned next step
(integrating the EDS equipment into airport baggage systems) is by far the most
costly aspect of full implementation. The task will not be to simply move the
machines from lobbies to baggage handling facilities but will require major
facility modifications. We have seen estimates that put the costs of those efforts at
over $5 billion, and this is an almost immediate issue facing the airports.

A key question is who will pay for those costs and how. While the current Airport
Improvement Plan (AIP) has provided some funding in the past for aviation
security, we urge caution in tapping this program until we have a firm handle on
airport safety and capacity requirements.

In FY 2002, airports used over $561 million of AIP funds for security-related
projects. In contrast, only about $56 million in AIP funds were used for security
in FY 2001. Continuing to use a significant portion of AIP funds on security
projects will have an impact on airports’ abilities to fund capacity projects. The
following chart shows how AIP funds were used and for what type of project in
FY 2002.

                         What Were FY 2002 AIP Grants
                                  Used For?
                                New Airports
                      Safety 4%     3%       Planning 3%
                     Terminal 6%
                   Block Grant
                       6%
                    Noise/
                  Environment
                                                     Airfield 52%
                      9%
                        Security 17%


AIP funds as well as passenger facility charges (PFCs) are eligible sources for
funding this work. However, according to FAA, PFCs are generally committed
for many outlying years and it would be difficult, requiring considerable


                                            24
coordination among stakeholders (i.e. airports and airlines), to make adjustments
for security modifications at this point. The following chart shows how PFC funds
have been used since 1992.


                      What Have PFCs Been Used For
                              Since 1992?
                       New Denver
                       Airport 8%
                         Noise 6%               Landside 31%
                       Roadways
                         10%

                        Airfield 17%
                                                Interest 28%


                                       Source: FAA

There have also been proposals to raise the cap on PFCs; however, we urge
caution before adding additional fees or taxes for air travel. Consumers already
pay a significant amount in aviation taxes and fees. For example, a non-stop
round-trip ticket costing $200 may consist of nearly $33 in taxes and fees, or
16 percent of the fare. On a connecting flight, the taxes on this ticket could be up
to $51, or nearly 26 percent of the fare. Any further increases are likely to reduce
airline revenues, given the weak demand environment and will further threaten the
financial health of the industry.

Aviation Safety

The U.S. air transport system is the safest in the world and safety remains the
number one priority for FAA. Until the recent Air Midwest crash in Charlotte,
there had not been a fatal commercial aviation accident in the United States in
14 months.

Progress has been made this past year in reducing the risk of aviation accidents
due to operational errors and runway incursions. Operational errors (when planes
come too close together in the air) and runway incursions (potential collisions on
the ground) decreased by 11 percent and 17 percent, respectively, in FY 2002.
Notwithstanding these improvements, operational errors and runway incursions
should remain an area of emphasis for FAA because at least three serious
operational errors and one serious runway incursion (in which collisions were
narrowly averted) occur, on average, every 10 days.


                                           25
In the current financially-strapped aviation environment, FAA must remain
vigilant in its oversight to sustain a high level of aviation safety. FAA has
recognized this need and has taken steps to heighten surveillance during times
when airlines are in financial distress. For example, FAA has increased the
number of inspections planned for distressed air carriers’ internal aircraft
maintenance operations. We are beginning an audit of this issue in the next
several weeks.

FAA also needs to pay close attention to the level of oversight it provides for
repair stations. In the past 5 years, there has been a significant increase in air
carriers’ use of these facilities. In 1996, major air carriers spent $1.6 billion for
outsourced maintenance (37 percent of total maintenance costs), whereas in 2001,
the major air carriers outsourced $2.9 billion (47 percent of total maintenance
costs).


                    Percentage Increase in Maintenance Outsourcing
                       for Major Air Carriers from 1996 to 2001
                                                                          Outsourcing Cost
             $7.0                                                         Total Cost

             $6.0

             $5.0

             $4.0
  Billions




                                                               43%      47%
             $3.0                                 45%
                             38%       41%
             $2.0   37%

             $1.0

             $0.0
                      1996      1997     1998           1999     2000     2001
 Source: U.S. DOT Form 41 Report s              Years




Even as air carriers currently outsource close to half of their maintenance work,
FAA has continued to focus its surveillance on air carriers’ in-house maintenance
operations with no comparable shift toward increased oversight of repair stations.
For example, FAA assigns a team of as many as 27 inspectors to continuously
monitor air carriers’ internal maintenance operations, while typically, only one to
two inspectors that have other collateral duties are assigned to monitor work
performed at aircraft repair stations. Because use of repair stations represents a
less costly way of getting maintenance work completed, the trend in outsourcing
maintenance is likely to continue. FAA needs to consider this shift in maintenance
practices when planning its safety surveillance work.


                                                 26
Another significant issue is the pending wave of controller retirements. In May
2001, FAA estimated a total of 7,195 controllers could leave the agency by the end
of FY 2010. In general, the training process to become a certified professional
controller can take up to 5 years. Given that time lag, FAA needs to take actions
now to address when and where new controllers will be needed. The pending
retirements underscore the need for an accurate labor distribution system. We will
be starting an audit of controller training in the next several weeks.

That concludes my statement, Mr. Chairman. I would be pleased to address any
questions you or other members of the Subcommittee might have.




                                       27
